     DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office of Inspector General


                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203

August 31, 2011

Report Number: A-01-11-02504

Ms. Mary C. Mayhew
Commissioner
Department of Health and Human Services
221 State Street
Augusta, ME 04333

Dear Ms. Mayhew:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Maine’s Title IV-E Training Costs for Federal
Fiscal Years 2008 Through 2010. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact George Nedder, Audit Manager, at (617) 565-3463 or through email at
George.Nedder@oig.hhs.gov. Please refer to report number A-01-11-02504 in all
correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 - Ms. Mary C. Mayhew


HHS Action Official:

Mr. Richard Borseti
Grants Management Officer
Office of Grants Management
Regional Administrator, Region I
Administration for Children and Families
U.S. Department of Health and Human Services
JFK Federal Building
Room 2000
Boston, MA 02203
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




      REVIEW OF MAINE’S
  TITLE IV-E TRAINING COSTS
  FOR FEDERAL FISCAL YEARS
     2008 THROUGH 2010




                       Daniel R. Levinson
                        Inspector General

                          August 2011
                         A-01-11-02504
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                               EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title IV-E of the Social Security Act, the Department of Health and Human
Services, Administration for Children and Families (ACF), Children’s Bureau
administers the foster care and adoption assistance programs. The Federal and State
Governments share in the costs of administering, staffing, and training for these programs
as detailed in each State’s approved cost allocation plan.

In general, the Federal Government reimburses State administrative costs at a rate of 50
percent. Federal regulations also provide an enhanced reimbursement rate of 75 percent
for foster care and adoption assistance training costs to cover the expenses of training a
State agency’s employees or prospective employees at educational institutions.
Furthermore, the State agency may claim costs at the enhanced reimbursement rate for
the training of foster care and adoptive parents.

In Maine, the Department of Health and Human Services, Office of Child and Family
Services (State agency) is the State IV-E agency responsible for the State and Federal
foster care and adoption assistance programs. The State agency contracts with the
University of Southern Maine’s Child Welfare Training Institute (the University) to offer
training to State employees and foster and adoptive parents. The agency claimed $4.37
million ($3.28 million Federal share) in training costs for these programs from October
2007 through September 2010.

OBJECTIVE

Our objective was to determine whether the State agency complied with Federal
requirements in claiming Federal reimbursement for Title IV-E training costs.

SUMMARY OF FINDINGS

The State agency claimed Title IV-E training costs totaling $2,495,375 (Federal share)
that were allowable, supported, and allocated in accordance with Federal requirements.
However, the State agency did not always follow Federal requirements in claiming
training costs. Specifically, the State agency improperly claimed:

    •   $263,659 in State employee salaries and University educational costs that were
        not related to the Title IV-E training program;

    •   $474,270 in State administrative and University educational costs that were
        allocated incorrectly to the Title IV-E training program; and

    •   $45,668 in indirect costs that did not qualify for reimbursement at the enhanced
        rate.


                                             i
As a result, the State agency overstated the Federal share of foster care and adoption
assistance training costs by $783,597. The overstatements occurred because the State
agency made clerical errors that improperly allocated, coded, and calculated Title IV-E
training costs. The State agency had corrected these clerical errors in the last quarter of
our review.

RECOMMENDATIONS

We recommend that the State agency:

   •   make a financial adjustment of $783,597 on its next Quarterly Report of
       Expenditures and

   •   continue the corrective actions it has taken to claim Title IV-E training costs in
       accordance with Federal requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our findings and
recommendations. The State agency’s comments are included in their entirety as an
Appendix.




                                              ii
                                            TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Title IV-E Foster Care and Adoption Assistance Program ...........................1
              Federal Reimbursement Requirements ..........................................................1
              Maine’s Title IV-E Program ..........................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology .................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          UNALLOWABLE TITLE IV-E TRAINING COSTS ..............................................4
              Federal Requirements ....................................................................................4
              Unallowable Costs .........................................................................................4

          UNALLOCABLE COSTS TO THE TITLE IV-E PROGRAM ...............................4
              Federal Requirements ....................................................................................4
              Improperly Allocated Training Costs ............................................................5

          CALCULATION OF THE FEDERAL SHARE OF INDIRECT COSTS ................5
              Federal Requirements ....................................................................................5
              Incorrect Calculation of the Federal Share Indirect Costs .............................6

          CONCLUSION ..........................................................................................................6

          RECOMMENDATIONS ...........................................................................................6

          STATE AGENCY COMMENTS ............................................................................. 6

APPENDIX

          STATE AGENCY COMMENTS




                                                               iii
                                    INTRODUCTION

BACKGROUND

Title IV-E Foster Care and Adoption Assistance Program

Pursuant to Title IV-E of the Social Security Act (the Act), the Department of Health and
Human Services, Administration for Children and Families (ACF), Children’s Bureau
administers the foster care and adoption assistance programs. The foster care program
finds and supports temporary placements for children who cannot remain safely at home.
The adoption assistance program finds and supports permanent placements for children
who cannot return safely to their homes. The Federal Government and States share in the
costs of administering, staffing, and training for these programs.

Federal Reimbursement Requirements

Pursuant to 2 CFR pt. 225, Appendix A, C.3.a., “[a] cost is allocable to a particular cost
objective if the goods or services involved are chargeable or assignable to such cost
objective in accordance with relative benefits received.” In order for costs to be allocated
properly among Federal and State Title IV-E programs, a saturation rate is calculated.
The saturation rate is usually the quotient of either adoption assistance or foster care
cases meeting Title IV-E eligibility requirements divided by the total cases in each of
these programs. The saturation rate is calculated quarterly and used to allocate allowable
costs between the two programs.

Title IV-E, section 474(a)(3)(A), of the Act authorizes Federal reimbursement to States at
a 75 percent matching rate for training of personnel employed or preparing for
employment by the State or local agency administering the Title IV-E program. Title
IV-E regulations (45 CFR § 1356.60(b)) state that Federal reimbursement is available at
75 percent for the costs of short- and long-term training at educational institutions as well
as for in-service training. Furthermore, the State agency may claim costs at the enhanced
reimbursement rate for the training of foster and adoptive parents. The regulations
require that in-service training or training at educational institutions be provided pursuant
to the provisions of 45 CFR §§ 235.63–235.66(a), which specify who may be trained, the
types of expenses that are allowable, and the sources of funds for the State’s share of
expenditures.

Section 474(a)(3)(E) of the Act and 45 CFR § 1356.60(c) provide for a 50 percent
Federal reimbursement rate for administrative expenditures. Training costs not allowable
at the enhanced reimbursement rate may be claimed at this rate provided the costs are
included in the State’s cost allocation plan.

Maine’s Title IV-E Training Program

In Maine, the Department of Health and Human Services, Office of Child and Family
Services (State agency) is responsible for the well-being of children (age 0 through 20)

                                              1
and families in the State. It is the State agency’s responsibility to provide services for
children in its custody, including educational, developmental, health, mental health,
social, and permanency needs.

The State agency contracts with the University of Southern Maine’s Child Welfare
Training Institute (the University) to offer training that provides basic knowledge on
current social work precepts and assists in professional development to personnel
employed or preparing for employment. In addition, the State agency provides
supervised field instruction to students of the University’s Bachelor of Social Work
program. In return, students agree to work for the State agency for 1 year after
graduation. The University also provides parent training to prospective and existing
foster and adoptive parents to provide the skills needed to care for children.

The University invoices the State agency for the training services provided to State
employees and foster and adoptive parents. The training invoices identify the benefiting
program (i.e., foster care or adoption assistance). The State agency uses the University’s
invoices to allocate costs between the State and Federal programs and applies the
appropriate Federal reimbursement rates. In addition, the State agency allocates
administrative costs to the Title IV-E training program that it calculates using its cost
allocation plan.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with Federal
requirements in claiming Federal reimbursement for Title IV-E training costs.

Scope

We reviewed the State agency’s claims for Federal reimbursement under Title IV-E for
foster care and adoption assistance training costs totaling $4.37 million ($3.28 million
Federal share) from October 2007 through September 2010. We limited our review of
internal controls to obtaining an understanding of the State agency’s procedures for
claiming foster care and adoption assistance training costs for reimbursement under
Title IV-E.

We performed fieldwork from December through March 2011 at the State agency in
Augusta, Maine.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws and regulations, and ACF’s Child Welfare
        Policy Manual;

                                              2
   •    reviewed Maine’s Single State Audit reports for State fiscal years (FY) 2007,
        2008, and 2009;

   •    met with Maine’s Department of Audit to ensure audit results were not
        duplicated;

   •    reviewed the State training and cost allocation plans;

   •    reconciled total foster care and adoption assistance training costs claimed on the
        quarterly Federal Title IV-E financial reports to supporting documentation for
        Federal FYs 2008, 2009, and 2010;

   •    reviewed supporting documentation to determine whether training costs claimed
        under Title IV-E were allocated properly between Federal and State programs;

   •    reviewed course descriptions and syllabi for training costs claimed for enhanced
        reimbursement; and

   •    discussed our results with State officials and regional ACF officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objective.

                       FINDINGS AND RECOMMENDATIONS

The State agency claimed Title IV-E training costs totaling $2,495,375 (Federal share)
that were allowable, supported, and allocated in accordance with Federal requirements.
However, the State agency did not always follow Federal requirements in claiming
training costs. Specifically, the State agency improperly claimed:

    •   $263,659 in State employee salaries and University educational costs that were
        not related to the Title IV-E training program;

    •   $474,270 in State administrative and University educational costs that were
        allocated incorrectly to the Title IV-E training program; and

    •   $45,668 in indirect costs that did not qualify for reimbursement at the enhanced
        rate.

As a result, the State agency overstated the Federal share of foster care and adoption
assistance training costs by $783,597. The overstatements occurred because the State
agency made clerical errors that improperly allocated, coded, and calculated Title IV-E

                                             3
training costs. The State agency had corrected these clerical errors in the last quarter of
our review.

UNALLOWABLE TITLE IV-E TRAINING COSTS

Federal Requirements

Pursuant to 2 CFR pt. 225, Appendix A, C.3.a., “[a] cost is allocable to a particular cost
objective if the goods or services involved are chargeable or assignable to such cost
objective in accordance with relative benefits received.”

Unallowable Costs

The State agency improperly claimed unallowable costs to the Title IV-E training
program, including the following:

   •   Two employees stopped providing direct services to the Title IV-E training
       program in June 2007 when they were transferred to other positions. However,
       the State agency continued to charge the employees’ salaries and related expenses
       directly to the IV-E program through September 2010. Thus, the State agency
       improperly claimed $226,885 to the Title IV-E training program.

   •   The State agency inadvertently transcribed the Medicaid training unit code to a
       Title IV-E training unit code when encumbering the training contract into its
       accounting system. Thus, the State agency improperly claimed $36,774 to the
       Title IV-E program.

As a result, the State agency overstated its Federal claim by a total of $263,659. The
overstatements occurred because the State agency made clerical errors that miscoded
training costs.

UNALLOCABLE COSTS TO THE TITLE IV-E PROGRAM

Federal Requirements

Pursuant to 2 CFR pt. 225, Appendix A, C.3.a., “[a] cost is allocable to a particular cost
objective if the goods or services involved are chargeable or assignable to such cost
objective in accordance with relative benefits received.”

In addition, ACF’s Child Welfare Policy Manual, 8.1H Title IV-E Training, states, “All
training costs must be allocated to Title IV-E, State foster care and other State/Federal
programs in such a manner as to ensure that the cost is charged to the program in
accordance with the relative benefits that the program receives from the training.”




                                              4
Improperly Allocated Training Costs

The State agency improperly charged training costs to the Title IV-E program that did not
directly benefit the program, including the following:

    •   The State agency inadvertently allocated Title IV-E training costs based on an
        incorrect calculation rather than charging costs directly to each benefiting
        program. By applying the incorrect calculation to all University invoices, the
        Federal program was overcharged, and the State program was undercharged.
        Thus, the State agency improperly charged $299,304 in State foster care training
        costs to the Federal adoption assistance program. 1

    •   The State agency inadvertently claimed the total costs without applying the
        saturation rate (the percentage of federally funded adopted children divided by the
        total IV-E adoption population) to allocate costs between State and Federal
        programs. Thus, the State agency improperly charged $99,090 in State adoption
        assistance training costs to the Federal adoption assistance training program. 2

    •   The State agency allocated administrative training costs to the Title IV-E training
        program using an inaccurate direct head count. The State agency did not revise
        the head count allocation amounts to include the transfer of two employees from
        Title IV-E Field Instructor positions. Thus, the State agency improperly charged
        $75,876 in administrative costs to the Title IV-E training program.

As a result, the State agency overstated its Federal claim by a total of $474,270. The
overstatements occurred because the State agency made clerical errors that improperly
allocated training costs.

CALCULATION OF THE FEDERAL SHARE OF INDIRECT COSTS

Federal Requirements

Federal regulation 45 CFR § 1356.60 (c) states that Federal financial participation is
available at the rate of 50 percent for administrative expenditures necessary for the proper
and efficient administration of the title IV-E State program. Training costs not allowable
at the enhanced reimbursement rate may be claimed at this rate. The State’s cost
allocation plan shall identify all costs to be allocated and claimed under this program.




1
  Maine’s Department of Audit indentified in its Single Audit Report, Fiscal Year Ending June 30, 2010,
that $55,198 in foster care training costs was improperly allocated to the adoption assistance program.
These costs were included in our questioned costs.
2
 Maine’s Department of Audit identified in its Single Audit Report, Fiscal Year Ending June 30, 2010, that
$31,355 in State adoption assistance training costs was improperly allocated to the Federal adoption
assistance program. These costs were included in our questioned costs.

                                                    5
Incorrect Calculation of the Federal Share Indirect Costs

The State agency incorrectly calculated the Federal share of indirect costs by applying the
enhanced Federal financial participation rate of 75 percent. Specifically, the State agency
claimed indirect expenses that applied to the general operation of the University and
other administrative expenditures that were not related directly to IV-E but are necessary
for the proper administration of the training program. Since these indirect costs apply to
the general operation of the State and University, the costs can be claimed only at the 50
percent participation rate. As a result, the State agency’s Federal claim was overstated by
a total of $45,668. The overstatements occurred because of clerical errors made by the
State agency in using the incorrect Federal participation rate in the allocation of costs to
the Title IV-E program.

CONCLUSION

The State agency did not always follow Federal requirements in claiming Title IV-E
training costs. As a result, the State agency overstated the Federal share of foster care
and adoption assistance training costs by $783,597. The overstatements occurred
because the State agency made clerical errors that improperly allocated, coded, and
calculated Title IV-E training costs. The State agency had corrected these clerical errors
in the last quarter of our review.

RECOMMENDATIONS

We recommend that the State agency:

   •   make a financial adjustment of $783,597 on its next Quarterly Report of
       Expenditures and

   •   continue the corrective actions it has taken to claim Title IV-E training costs in
       accordance with Federal requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our findings and
recommendations. The State agency’s comments are included in their entirety as an
Appendix.




                                             6
APPENDIX
                                                APPENDIX: STATE AGENCY COMMENTS 

                                                                                                                 Page 1 of2
                                                                                          Department of Health and Human Services
                                   DepartmenJ of Health                                                       Commissioner's Office
                                   and Human Services


 •
                                                                                                                     221 State Street
                      ------Moin&                      F~e lJ-.;.g                                          # 11 State House Station
                                .Sole, HeoI:Iry ond Prodac~'fe Lives ~                                   Augusta, Maine 04333-0011
                           .,                                       "
                                                                                                                  Tel: (207) 287-3707
Paul R. LePage, Governor           Mary C. Moyhew, Commissioner                              Fax (207) 287-3005; TTY: 1-800-606-0215




                                                                         August 15,2011



       Mr. Michael J. Armstrong, Regional Inspector General for Audit Services
       Office of Audit Services, Region I     .
       John F. Kennedy Federal Building, Room 2425
       Boston, MA 02203

         Re: Review of Maine 's Title N-E Training Costs for Federal Fiscal Years 2008 through 2010 ­
                                        Report Number A-0l-I1-02504.

        Dear Mr. Armstrong:

                The Department of Health and Human Services (DHHS) appreciates the opportunity to
        respond to the above mentioned draft audit report. We offer the following comments in relation
        to the recommendations on Page 6 of this report.

                For your convenience, below we include the summary finding and list each
                J


        recommendation followed by our response. Each response includes the State' s proposed
        corrective action plan which we believe will bring the State into compliance with Federal
        requirements.

                    Finding: 

                    The State agency did not always follow Federal requirements in clairmng Title IV-E 

                    training costs. As a result, the Stateagency overstated the Federal share of foster care 

                    and adoption. assistance training costs by $783,597. The overstatement occurred because 

                    the State agency made clerical errors that improperly allocated, coded, and calculated 

                    Title IV -E training costs. The State agency had corrected these clerical errors in the last 

                    quarter of our review. 


                    Recommendation: 

                    Make a financial adjustment of $783,597 on its next Quarterly Report of Expenditures. 


                    Response: 

                    DHHS agrees with this recommendation. DHHS will refund $783,597 in the first qu arter 

                    after receipt of the final report. 

                                                                                      Page 2 of2

Mr. Michael J. Armstrong
August 15, 2011
Page Two

       Recommendation:
       Continue the corrective actions it has taken to claim Title N -E training costs in
       accordance with Federal requirements.

       Response:
       DlffiS agrees with this recommendation. DHHS will continue the corrective actions it
       has taken to claim Title N -E training costs in accordance with Federal requirements.

        We appreciate the time spent in Maine by ~IG ' s staff reviewing Maine' s Title N-E
training costs. We believe this effort will enable us to perform this function more accurately in .
the future.

                                             Sincerely,


                                           A//~
                                             Mary C. Mayhew
                                             Commissioner

MCMIklv

cc: Tim Lawrence. Internal Audit Manager, DlffiS
